WAIVER

SUPREME COURT OF THE UNITED STATES

No. (21-5020

‘Michael Bernard Potere \The State Bar of California
Le - es
(Petitioner) Vv. (Respondent)

IDO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.

Please check the appropriate box:
© [am filing this waiver on behalf of all respondents.

oO I only represent some respondents. I am filing this waiver on behalf of the following respondent(s):

‘The State Bar of California

 

Please check the appropriate box:

® J am a member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)

oO I am not presently a member of the Bar of this Court. Should a response be requested, the response

will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,
Attn: Clerk’s Office, 1 First Street, NE, Washington, D.C. 20543).

Date: 7/6/21

(Type or print) Name ‘Robert G. Retana

Om OM © ms. O Miss
Firm ‘The State Bar of California
Address 180 Howard Street - - - -
City & State San Francisco CA : Zip 94105 j
Phone 415-538-2337 Email |robert.retana@calbar.ca.gov

A copy of this form must be sent to petitioner's counsel or to petitioner if pro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover letter is required.
jMichael Bernard Potere
ce: \\ 8 Inis Circle
|West Newton MA 02465
|
